February 13, 2008
The United States Attorney's Office
Southern District of Iowa
Former Bank Vice President Sentenced for
$569,115 Embezzlement and Money Laundering
Davenport, IA - On February 13, 2008, Michael Dean Miller, age 51, of Burlington, formerly Vice President of Burlington Bank and Trust (BBT), Burlington, and Two Rivers Bank and Trust (TRBT), Des Moines, was sentenced to 37 months imprisonment, having previously pleaded guilty to two counts of bank embezzlement and three counts of money laundering, announced United States Attorney Matthew G. Whitaker. United States District Judge John A. Jarvey also ordered Miller to serve three years on supervised release following imprisonment and pay $539,130 in restitution to the banks and an assessment of $100 to the Crime Victim Fund.
In March 2000, Miller was hired as Vice President for Operations at BBT. In June 2006, he was transferred to Vice President for Operations at TRBT, but also continued working in a dual capacity at BBT until his termination on December 12, 2006. During the relevant period, both Miller and his girlfriend (later fiancé, later wife) maintained various savings and checking accounts at BBT.
Starting on September 7, 2001, and continuing until December 12, 2006, Miller stole money from his employer, making 109 internal electronic transactions, or block entries, causing money to be transferred from internal bank expense accounts to his or his girlfriends personal accounts. Most commonly, Miller initially put the money went into one of the girlfriends accounts and subsequently transferred the money from there to Millers checking account. Miller attempted to disguise the movements as normal ones, causing notations such as telephone transfer or miscellaneous debit to appear on the account statements.
Miller also made transactions causing bank checks to be issued or internet payments to be made to third parties, such as credit card companies, in payment of monies owed by Miller or his girlfriend.
Since Millers duties at the two banks included, among other things, reconciliation of internal bank accounts and review of employee account activity, and Miller was the security officer and had access to all computer applications used by the banks, Miller was able to prevent detection of his thefts for over five years.
In December 2006, after other bank employees became suspicious of certain electronic transactions, officials at BBT discovered some of the recent thefts. Miller was confronted and admitting stealing about $46,000 during the previous year. A subsequent investigation by the FBI and Burlington Police Department and an audit by the FDIC revealed that Miller had embezzled a total of $569,115 over the course of more than 5 years.
No customer accounts were involved in these thefts.
This case was prosecuted by the United States Attorney for the Southern District of Iowa and investigated by the Federal Bureau of Investigation, Burlington Police Department, and Federal Deposit Insurance Corporation.
Last Updated 2/19/08
contact the FDIC OIG